Annual Report
            2009




Madison Council Annual Report | 2009   27
          Financial Statements                          Statement of Financial Position
                                     James Madison
                               National Council Fund
                                                        ASSETS
                                 September 30, 2009
                                                        Cash                                           $      82,506
                                                        Investments: (Note 2)
                                                           U.S. Treasury Market Based
                                                           Securities                                      3,338,942
                                                           Growth and Income Pool                            660,947
                                                        Total investments                                  3,999,889
                                                        Receivables:
                                                           Pledges (Note 3)                                  879,759
                                                        Property, Plant and Equipment
                                                        (Note 4)                                             160,073
                                                        Total assets                                   $ 5,122,227


                                                        LIABILITIES AND NET ASSETS
                                                        Accounts payable                               $      31,511
                                                        Accrued payroll and annual leave                      48,482
                                                        Total liabilities                                     79,993


                                                        Net assets (Note 5)
                                                           Unrestricted-Undesignated                       2,219,771
                                                           Unrestricted-Council designated
                                                           for projects                                      114,037
                                                           Temporarily donor restricted
                                                           for projects                                    2,708,426
                                                        Total net assets                                   5,042,234


                                                        Total liabilities and net assets               $ 5,122,227

                                                        These financial statements should be read only in connection
                                                        with the accompanying notes to financial statements.




30   James Madison Council of the Library of Congress
Statement of Activities                                         Statement of Cash Flows

CHANGES IN UNRESTRICTED NET ASSETS                              Cash flows from operating activities:
Revenues                                                           Donations Received                          $ 1,315,070
Membership contributions                     $      901,797        Interest Received                                  27,182
Miscellaneous gifts                                    5,356       Cash paid to others                             (1,214,385)
Interest                                              17,216       Cash paid to employees                           (611,269)
Net unrealized gain/loss and                                       Net cash provided by (used by)
realized gain on investments (Note 2)                (42,501)      operating activities                        $    (483,402)
Imputed financing for cost subsidies
(Note 6)                                              38,468    Cash flows from investing activities:
Dividends                                             11,881       Investment in U.S. Treasury
                                                                   Market Based Securities                     $ (2,570,961)
Royalties                                                 76
                                                                   Redemption of Investment in
Net assets released from restrictions               429,902
                                                                   U.S. Treasury Market Based Securities           3,254,111
Total revenues                                    1,362,193
                                                                   Purchases of Plant, Property,
                                                                   & Equipment                                      (160,073)
Expenses (see Schedule B)
                                                                   Net cash provided by (used by)
Personnel costs                                     644,365        investing activities                        $     523,077
Travel and transportation and
subsistence/support persons                           76,783    Net Increase (decrease) in Cash                       39,675
Other services                                      131,162     Cash at beginning of year                             42,831
Books and library materials                         364,203     Cash at end of year                            $      82,506
Exhibit opening events, receptions,
and Madison Council meetings                        174,090     Reconciliation of Changes in Net Assets
                                                                to Net Cash From Operating Activities
Contractual and personnel services                  230,979
                                                                Change in Net Assets                           $    (324,958)
Office supplies, printing and materials               32,285
Total expenses                                    1,653,867     Adjustments to reconcile changes in
Increase/decrease in unrestricted                               net assets to net cash provided from
net assets                                         (291,674)    operating activities
                                                                Non-cash loss on mutual fund investments              42,501
CHANGES IN TEMPORARILY RESTRICTED NET ASSETS                    Decrease in investment discount                         9,966
Contributions                                       395,963     Increase in pledges receivable                           (655)
Temporarily restricted donations                         655    Decrease in accrued payroll and annual leave           (5,372)
Net assets released from restrictions              (429,902)    Decrease in accounts receivable                            75
Increase/decrease in temporarily                                Decrease in accounts payable                        (204,959)
restricted net assets                                (33,284)
Decrease in net assets                             (324,958)    Total Adjustments                                   (158,444)
Net assets at beginning of year                   5,367,192
Net assets at end of year                    $    5,042,234     Net Cash provided by (used by)
                                                                Operating Activities                           $    (483,402)
These financial statements should be read only in connection
with the accompanying notes to financial statements.            These financial statements should be read only in connection
                                                                with the accompanying notes to financial statements.




                                                                                            Madison Council Annual Report | 2009   31
          Notes to Financial Statements
          James Madison National Council Fund | September 30, 2009


          NOTE 1 | REPORTING ENTITY AND SUMMARY OF                               C. Use of Estimates
          SIGNIFICANT ACCOUNTING PRINCIPLES                                      The preparation of the Fund’s financial statements in conformity
                                                                                 with generally accepted accounting principles requires man-
          A. Description of Fund                                                 agement to make estimates and assumptions that affect the
          The James Madison National Council Fund (JMNC Fund) was                amounts reported in the financial statements and accompa-
          initiated by the Librarian of Congress, accepted through a poll        nying notes. Actual results could differ from these estimates.
          vote by the Library of Congress Trust Fund Board in July 1989
          and reaffirmed October 7, 1989. A gift of $100,000 from Robert         D. Contributions and Revenue Recognition
          Gwinn, Chairman of the Board of Encyclopedia Britannica, estab-        The Fund records as contribution revenue amounts received in
          lished the Fund. The JMNC Fund is reported in the Library of           the form of cash, promises, or pledges to give. Unconditional
          Congress gift and trust funds.                                         promises or pledges to give are recognized as a contribution
          The James Madison National Council is an advisory board of             receivable. Multi- year pledges or promises due over a period of
          business people and philanthropists that contribute ideas,             time are discounted to their present value, based upon prevail-
          expertise, and financial backing to support the Library’s col-         ing interest rates, and recognized in the period of initial pledge.
          lections and programs. The Council is open to persons from
          the private sector interested in advancing the Library’s outreach      E. Income Tax
          mission.                                                               The JMNC Fund operates for the benefit of the Library of
                                                                                 Congress, which is an instrument of the United States and, as
          Significant accounting policies followed by the JMNC Fund are          such, is not subject to income tax.
          presented below.
                                                                                 F. Investment Policy
          B. Basis of Accounting and Presentation                                The Library of Congress Trust Fund Board determines the invest-
          The Fund’s financial statements have been prepared on the              ment policy for the Library’s trust funds. The policy provides
          accrual basis in accordance with generally accepted accounting         three options for investment of the JMNC Fund funds:
          principles.                                                            ■ a permanent loan with the U.S. Treasury

          The Fund adopted financial reporting standards applicable to           ■ a pool of U.S. Treasury market-based securities
          not-for-profit organizations. The financial statements are pre-        ■ a private investment pool consisting of five stock funds
          pared in accordance with Financial Accounting Standards No.               and one money market fund. The funds recommended by
          117, and recognizes net assets based on the existence of appli-           the Library of Congress Trust Fund Board’s investment
          cable restrictions limiting their use.                                    committee and approved by the Board are:
          Temporarily restricted net assets result from donor-imposed               • Vanguard Institutional Index Fund
          restrictions that permit the Fund to use or expend the assets             • Vanguard Capital Opportunity Fund
          after the restriction has been satisfied. When a donor-imposed            • Fidelity Blue Chip Growth Fund
          restriction is satisfied, that is, when a stipulated time restric-        • Fidelity Capitol Appreciation Fund
          tion ends or the purpose of the restriction is accomplished,
                                                                                    • Fidelity Growth Company Fund
          temporarily restricted net assets are reclassified to unrestricted
          net assets and reported in the Statement of Activities as net             • Fidelity Dividend Growth Fund
          assets released from restrictions.                                     Investments in U.S. market-based securities are stated at cost
                                                                                 net of any unamortized premium or discount, which approxi-
          Unrestricted net assets result from the receipt of unrestricted
                                                                                 mates market value at September 30, 2009. The permanent
          contributions, the expiration of donor-imposed restrictions on
                                                                                 loan is an interest bearing par value investment which equals
          contributions, and changes in other assets and liabilities. These
                                                                                 the market value. Stock and money market mutual funds are
          assets are available to the Fund for use in support of current
                                                                                 stated at current market value.
          and future operations. The Library of Congress provides sup-
          port services to the James Madison National Council. The cost
          of these services are, by their nature, indirect, difficult to quan-   NOTE 2 | INVESTMENTS
          tify, and financed with appropriated funds of the Library. To the      A. U. S. Treasury
          extent that these services are provided, they are not consid-          An act of Congress approved March 3, 1925, and subsequently
          ered operating expenses of the James Madison National Council.         amended, permits up to $10 million of trust funds to be invested
                                                                                 with the United States Treasury as a perpetual loan, at a floating
                                                                                 interest rate, adjusted monthly, but no less than four percent per
                                                                                 annum. Other investments with U.S. Treasury were as follows:



32   James Madison Council of the Library of Congress
                               Unamortized   Unamortized   Amortized    of $2,822,464 consisting of $114,037 (Unrestricted-Council Desig-
Investment        Par          Premium       Discount      Cost
                                                                        nated for Projects) and $2,708,426 (Temporarily Donor Restricted
Non-Marketable,
Market Based                                                            for Projects) is earmarked for initiatives such as the purchase of
                  $3,338,328   $0            $ (614)       $3,338,942
Government                                                              special acquisitions including overseas rare publications, funding
Securities                                                              for the new Children’s Reading Room, support of the National Book
                                                                        Festival with President and Mrs. Obama as honorary chairs, the
B. Mutual Funds
                                                                        Junior Fellows Summer Internship Program, the addition of mate-
The JMNC Fund invested $500,000 in the growth and income pool
                                                                        rials to the World Digital Library website, the support of the Carl
(non-Treasury mutual fund investments) in 1996 and has rein-
                                                                        Jung Exhibition, the National Educational Center and an amount
vested capital gains distributions and dividends since then. Market
                                                                        that is restricted to be used at the discretion of the Librarian of
value of the growth and income pool as of September 30, 2009,
                                                                        Congress for projects that arise that do not have funding or the
totaled $660,947.
                                                                        time horizon to raise money for the project.
The net loss on investments of $42,501 consists of the following:
                                                                        Ending Net Assets includes undelivered orders of $284,199 which
$965 realized gain of mutual fund capital gains distributions and
                                                                        are funds that have been obligated for budgetary purposes, for
$43,466 unrealized loss on the growth and income pool.
                                                                        goods and services not yet received for JMNC Fund operations and
                                                                        designated projects.
NOTE 3 | PLEDGES
Contributions of unconditional promises to give (pledges) to the        NOTE 6 | IMPUTED FINANCING FOR COST SUBSIDIES
JMNC Fund are recognized as temporarily restricted revenue in
the period received. They are recorded at their present value using     An adjustment of $38,463 was recorded as an imputed financing
a market discount rate. Accretion of the discount in subsequent         source and a corresponding expense in the accompanying finan-
years is also recorded as contribution revenue. Outstanding             cial statements. This adjustment recognizes the full cost of pen-
pledges of $1,134,040 at September 30, 2009, were discounted            sions and other health and life insurance benefits incurred by the
through fiscal year 2018 at a market discount rate and are included     Office of Personnel Management during the employees’ active
in the statement of financial position at their discounted present      years of service.
value of $879,834. The amounts due in future years at their cur-
rent discounted value are: $44,493 in fiscal year 2010; $43,862 in      NOTE 7 | EXPENSES BY FUNCTIONAL CLASSIFICATION
2011; $42,880 in 2012; and $748,600 in fiscal year 2018. The            As permitted by SFAS No. 117, the Library has elected to present
Library regularly monitors the status of all pledges and adjusts        its operating expenses by natural classification in its Statements of
accordingly; therefore no allowance for uncollectible pledges has       Activities for the period ending September 30, 2009. The func-
been established.                                                       tional breakdown of these expenses is as follows (see Schedule B):
                                                                        Fiscal Year 2009 Expenses
NOTE 4 | PROPERTY, PLANT, & EQUIPMENT                                   by Functional Classification                                      Amount
Property, plant, & equipment of $160,073 represents design serv-        JMNC Fund Projects and Programs                                 $ 235,518
ices for exhibit space in the Jefferson Building that are being paid    Members’ Specific Projects                                        429,902
for by the Madison Council. The Library occasionally acquires           Supporting Activities — Fundraising                               988,447

property and equipment by direct gift or by purchase from funds         Total Expenses                                                  $1,653,867
donated for a specific purpose or project. Because property is
generally not restricted for use to gift and trust activities, capi-
                                                                        NOTE 7 | RETIREMENT PLANS
talized property and equipment acquired through gifts are rec-
ognized as donated revenue in the gift and TFB funds and                Employees of JMNC Fund participate in two different retirement
transferred to the Library’s appropriated fund, once the costs are      plans. Civil Service employees participate in the Civil Service
complete and the property is placed in service. The work is not         Retirement System (CSRS) or the Federal Employees’ Retirement
yet complete and will likely transfer to the Library’s appropriated     System (FERS). FERS is the system in effect for most employees
funds in fiscal year 2010.                                              hired after December 31, 1983.
                                                                        In fiscal year 2009, the JMNC Fund paid approximately $62,434 to
NOTE 5 | NET ASSETS                                                     fund retirement benefits, excluding FICA taxes.
The JMNC Net Assets of $5,042,234 are classified as Unrestricted-
Undesignated, Unrestricted-Council Designated for Projects or
Temporarily Donor Restricted for Projects. Of this total amount,        This information is an integral part of the accompanying
$2,219,771 is classified as Unrestricted-Undesignated. The balance      financial statements.


                                                                                                              Madison Council Annual Report | 2009   33
          Independent Auditor’s Report
          Steering Committee | James Madison National Council Fund


                                                                         SUMMARY
                                                                         As stated in our opinion on the financial statements, we con-
                                                                         cluded that the Fund’s financial statements for the year ended
                                                                         September 30, 2009 are presented fairly, in all material
          We have audited the accompanying Statement of Financial        respects, in conformity with accounting principles generally
          Position of the James Madison National Council Fund (the       accepted in the United States of America.
          Fund) as of September 30, 2009, and the related statements
                                                                         Our consideration of internal control over financial reporting
          of activities and cash flows (hereinafter referred to as the
                                                                         (including the safeguarding of assets) disclosed no material
          financial statements) for the year then ended. These finan-
                                                                         weaknesses.
          cial statements are the responsibility of the Fund’s manage-
          ment. Our responsibility is to express an opinion on these     The results of our tests of compliance with certain provisions
          financial statements based on our audit.                       of laws and regulations disclosed no instances of noncompli-
                                                                         ance that are required to be reported herein under Government
                                                                         Auditing Standards issued by the Comptroller General of the
                                                                         United States.
                                                                         The following sections discuss our opinion on the Fund’s finan-
                                                                         cial statements, our consideration of the Fund’s internal con-
                                                                         trol over financial reporting, our tests of the Fund’s compliance
                                                        March 29, 2010   with certain provisions of applicable laws and regulations, and
                                                                         management’s and our responsibilities.
               To the Steering Committee
               James Madison National Council Fund
                                                                         OPINION ON THE FINANCIAL STATEMENTS
               We contracted with the independent public accounting
               firm of Kearney & Company to audit the Fund’s financial   We have audited the accompanying Statement of Financial
               statements. The firm is responsible for the attached      Position of the Fund as of September 30, 2009, and the related
               auditor’s report and the opinion and conclusions
                                                                         statements of activities and cash flows for the year then ended.
               expressed in that report.
                                                                         These financial statements are the responsibility of the Fund’s
               We reviewed Kearney & Company’s report and related        management. Our responsibility is to express an opinion on
               documentation. Our review was not intended to enable      these financial statements based on our audit.
               us to express, and we do not express, an opinion on the
               Fund’s financial statements, conclusions on internal
                                                                         We conducted our audit in accordance with auditing standards
               control, or compliance with laws and regulations. Our     generally accepted in the United States of America; the stan-
               review disclosed no instances in which Kearney &          dards applicable to financial audits contained in Government
               Company did not materially comply with U.S. generally     Auditing Standards, issued by the Comptroller General of the
               accepted government auditing standards.                   United States; and Office of Management and Budget (OMB)
                                                                         Bulletin No. 07-04, Audit Requirements for Federal Financial
                                                                         Statements, as amended. Those standards require that we
                                                                         plan and perform the audit to obtain reasonable assurance
                                                                         about whether the financial statements are free of material
               Karl W. Schornagel
                                                                         misstatement. An audit includes examining, on a test basis,
               Inspector General
                                                                         evidence supporting the amounts and disclosures in the finan-
                                                                         cial statements. An audit also includes assessing the account-
                                                                         ing principles used and significant estimates made by
                                                                         management, as well as evaluating the overall financial state-
                                                                         ment presentation. We believe that our audit provides a rea-
                                                                         sonable basis for our opinion.




34   James Madison Council of the Library of Congress
In our opinion, the financial statements referred to above present      process, or report financial data reliably in accordance with gen-
fairly, in all material respects, the financial position of the Fund    erally accepted accounting principles such that there is more than
as of September 30, 2009, and its activities and cash flows for         a remote likelihood that a misstatement of the Fund’s financial
the year then ended, in conformity with accounting principles gen-      statements that is more than inconsequential will not be pre-
erally accepted in the United States of America.                        vented or detected by the Fund’s internal controls.
Our audit was conducted for the purpose of forming an opinion           A material weakness is a significant deficiency, or combination of
on the financial statements referred to in the first paragraph. The     significant deficiencies, that results in more than a remote likeli-
information contained in Schedules A and B is not a required part       hood that a material misstatement of the financial statements
of the Fund’s financial statements. Such information is subject to      will not be prevented or detected by the Fund’s internal controls.
the auditing procedures applied in the audit of the basic finan-        Our consideration of internal controls was for the limited purpose
cial statements. In our opinion, this information is fairly stated,     described in the second paragraph of this report, and would not
in all material respects, in relation to the basic financial state-     necessarily identify all deficiencies in internal control that might
ments taken as a whole.                                                 be considered significant deficiencies or material weaknesses.
                                                                        We noted no matters involving internal controls and their opera-
                                                                        tions that we consider to be material weaknesses or significant
INTERNAL CONTROL OVER FINANCIAL REPORTING                               deficiencies.
In planning and performing our audit, we considered the Fund’s
internal control over financial reporting by obtaining an under-
standing of the design effectiveness of the Fund’s internal con-        COMPLIANCE AND OTHER MATTERS
trols, determining whether these controls had been placed in            As part of obtaining reasonable assurance about whether the
operation, assessing control risk, and performing tests of the          Fund’s financial statements are free of material misstatement, we
Fund’s controls in order to determine our auditing procedures for       performed tests of the Fund’s compliance with certain provisions
the purpose of expressing our opinion on the financial statements,      of laws and regulations, noncompliance with which could have a
and not to provide an opinion on the internal controls. Accordingly,    direct and material effect on the determination of financial state-
we do not express an opinion on the effectiveness of the Fund’s         ment amounts and certain other laws and regulations specified
internal controls over financial reporting and compliance.              in OMB Bulletin No. 07-04. We limited our tests of compliance to
We limited our control testing to those controls necessary to achieve   these provisions, and did not test compliance with all laws and
the following OMB control objectives that provide reasonable,           regulations applicable to the Fund. However, providing an opin-
but not absolute, assurance that: 1) transactions are properly          ion on compliance with certain provisions of laws and regulations
recorded, processed, and summarized to permit the preparation           was not an objective of our audit, and, accordingly, we do not
of the financial statements in accordance with accounting princi-       express such an opinion.
ples generally accepted in the United States of America, and assets     The results of our tests of compliance described in the preceding
are safeguarded against loss from unauthorized acquisition, use,        paragraph disclosed no instances of noncompliance or other mat-
or disposition; 2) transactions are executed in compliance with         ters that are required to be reported under Government Auditing
laws governing the use of budget authority, government-wide             Standards and OMB Bulletin No. 07-04.
policies and laws identified in Appendix E of OMB Bulletin No. 07-
04, and other laws and regulations that could have a direct and
material effect on financial statements. We did not test all internal   This report is intended solely for the information and use of the
controls relevant to the operating objectives broadly defined by        Steering Committee, the Fund’s management, and Congress, and
the Federal Managers’ Financial Integrity Act of 1982 (FMFIA).          is not intended to be, and should not be, used by anyone other
                                                                        than these specified parties.
A control deficiency exists when the design or operation of a con-
trol does not allow management or employees, in the normal
course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a con-
trol deficiency, or combination of control deficiencies, that           March 4, 2010
adversely affects the Fund’s ability to initiate, authorize, record,    Alexandria, Virginia




                                                                                                       Madison Council Annual Report | 2009    35
          Supplemental Information
          James Madison National Council Fund | September 30, 2009


          SCHEDULE A
          Schedule of Net Assets Available for Designation

          Total Net Assets                              $ 5,042,234
          Net assets restricted by donors
          for projects                                   (2,708,426)
          Net assets designated by the
          Council for projects                             (114,037)
          Total restricted or designated
          net assets                                     (2,822,463)

          Net Assets Available for Designation          $ 2,219,771




          SCHEDULE B
          Schedule of Expenditures
                                                                 Fund     Members’     Supporting
                                                          Projects and     Specific    Activities—
                                                             Programs      Projects    Fundraising         Total

          Personnel costs                                 $ 93,172       $ 11,023     $ 540,170      $ 644,365
          Travel and transportation and
          subsistence/support persons                              12      10,436         66,335         76,783
          Other services                                            0      30,000       101,162         131,162
          Books and library materials                        52,264       311,939               0       364,203
          Exhibit Opening Events, Receptions,
          and Madison Council Meetings                         2,050          698       171,343         174,090
          Contractual and personnel services                 88,020        65,495         77,464        230,979
          Office supplies, printing and materials                   0         311         31,973         32,285

          Totals                                          $ 235,518      $ 429,902    $ 988,447      $1,653,867




36   James Madison Council of the Library of Congress
